Appendix A
Opinion of the Kansas Supreme Court

Appendix B
Opinion of the Kansas Court of Appeals

Appendix C
Order of Denial of Rehearing and Modification

Appendix D
Constitutional and Statutory Provisions In­
volved

— la -

430 P.3d 30 (2018)

Edina HARSAY, Appellant,
v.
UNIVERSITY OF KANSAS, Appellee.
No. 114,292.

Supreme Court of Kansas.
Opinion filed November 21, 2018.
Review of the judgment of the Court of Appeals in
an unpublished opinion filed July 29, 2016. Appeal
from Douglas District Court; ROBERT W.
FAIRCHILD, judge. Opinion filed November 21,
2018. Judgment of the Court of Appeals reversing
the district court is reversed. Judgment of the dis­
trict court is affirmed.
Edina Harsay, appellant, was on the briefs pro se.
Sara L. Trower, associate general counsel and
special assistant attorney general, and Michael C.
Leitch, associate general counsel and special assis­
tant attorney general, Lawrence, were on the briefs
for appellee.
Syllabus by the Court
1. K.S.A. 60-518 is applicable to save a Kansas
Judicial Review Act action challenging a university
Appendix A

-2apromotion and tenure denial, if the action is refiled
within six months of dismissal for lack of prosecu­
tion.
2. On the record in this case, a university's deci­
sion to deny promotion and tenure was supported by
evidence "based on a determination of fact, made or
implied by the agency" that was "supported to the
appropriate standard of proof by evidence that is
substantial when viewed in light of the record as a
whole," as required by K.S.A. 2017 Supp. 77621(c)(7).
The opinion of the court was delivered by
BEIER, J.: After being denied promotion and ten­
ure at the University of Kansas, Edina Harsay
brought this action under the Kansas Judicial Re­
view Act. The district judge dismissed the action for
lack of prosecution. Harsay then refiled within six
months, relying on K.S.A. 60-518, the savings stat­
ute, to make her action timely.
A panel of our Court of Appeals reversed the dis­
missal, ordering remand to the University to begin
the promotion and tenure consideration process
anew. The University has successfully petitioned for
our review of whether K.S.A. 60-518 should have
been applied, and, if so, whether the University's de­
cision to deny Harsay promotion and tenure should
be upheld because it was supported by substantial
evidence.
We hold K.S.A. 60-518 applied to make Harsay's
refiled KJRA action timely; but, because the Univer­
sity's decision was supported by substantial evidence
Appendix A

-3a-

under K.S.A. 2017 Supp. 77-621(c)(7), that decision
must stand.
FACTUAL AND PROCEDURAL
BACKGROUND
Harsay was hired for a tenure-track position on
the faculty of the University in January 2004.
The University's Promotion and Tenure
Process
The University's multilayered review process for
tenure culminates in the granting or the denial of
promotion and tenure. Denial leads to termination of
employment. Each level of review is independent of
the others; no reviewing level is bound by the deci­
sion of any other; and each level must base its deci­
sion on the applicant's scholarship, teaching, and
service to the University.
The process ends with the chancellor's decision.
According to the University's rules, the chancellor
must consider the entire record before him or her in
making the decision. The chancellor's decision is a
final agency action under Kansas law.
According to the University, scholarship is an es­
sential aspect of the applicant's record and the ten­
ure review process. Applicants seeking tenure must
demonstrate "accomplishment reflecting a sustain­
able program of scholarly activity," and review of this
area must be done "in light of the expectations of the
discipline." Scholarship review covers both the quanAppendix A

— 4a —
tity and quality of the applicant's work. It also in­
cludes evaluation of the work by peers in the appli­
cant's field from outside the University, as well as
evaluation of the applicant's reputation in his or her
field. An applicant's "teaching (or professional per­
formance), scholarship, and service are characterized
as 'excellent,' 'very good,’ 'good,' 'marginal,' or
'poor.'" An applicant for tenure must receive at least
a rating of "'good'" in all three categories "[a]bsent
exceptional circumstances."
Harsay's Dossier
Harsay's tenure review began in 2009 in her De­
partment of Molecular Biosciences, to which Harsay
submitted a promotion and tenure "dossier." The
dossier included information about her pertinent
scholarship and grants as well as external reviews
from peers in her field.
Harsay reported her scholarship as one published
article in a scientific journal in 2007; one paper ac­
cepted and being prepared for publication, which was
published later in 2009; and one manuscript being
considered for acceptance for publication.
As for grants, Harsay reported four grants from
the National Institutes of Health (NIH) and one
grant from the American Heart Association, totaling
slightly more than $600,000. Harsay also included
one pending grant from the NIH, one pending grant
from the National Science Foundation (NSF), and
one pending grant from the Department of Defense,
totaling nearly $3.6 million. Harsay included proposAppendix A

-5aals for eight more grants submitted to various or­
ganizations but not funded at the time of her appli­
cation for tenure.
The peers in Harsay's field whose remarks were
included in the dossier varied in their opinions re­
garding her promotion and tenure. Three reviewers
recommended Harsay for tenure; three recommended
tenure but expressed serious reservations; one re­
fused to endorse her. All reviewers mentioned insuf­
ficiency of scholarship. At least one reviewer com­
mented that a low publication rate like Harsay's
could make it difficult to maintain funding for her
work.
Department Level
The review at the department level of the Univer­
sity resulted in a recommendation for Harsay to re­
ceive promotion to associate professor and tenure.
The vote was 11 to 6.
In its recommendation letter to the College of
Liberal Arts and Sciences committee that would con­
duct the next level of review, the department review
committee noted Harsay's relatively low number of
published papers and said that "[t]he question of
quantity versus quality was also at the center of the
department's discussion." A review by the full de­
partment noted that the external reviewers "ex­
pressed concerns about her level of productivity." But
Harsay "had moderate to good success at obtaining
extramural support for her research" and had grants
pending or received.
Appendix A

- 6a The department's recommendation was forwarded
to the College Committee on Appointments, Promo­
tions, and Tenure (the College Committee).
College of Liberal Arts and Sciences Level
The College Committee initially concluded that
Harsay did not qualify for promotion and tenure and
notified the chair of Harsay's department, Robert S.
Cohen, by letter. The College Committee made "this
decision ... largely based on research productivity." It
requested additional information on Harsay's schol­
arship and research proposals so that it could make a
final recommendation to the body responsible for the
next level of review, the University Committee on
Promotion and Tenure (the University Committee).
The College Committee's letter to Cohen stated that
Harsay was to be provided a copy of the letter and an
opportunity to respond to its preliminary conclusion.
Cohen responded to the College Committee's re­
quest for more information. He told the College
Committee that since Harsay submitted the dossier
she had successfully published another paper (bring­
ing her total to two) and the third paper mentioned
in the dossier, i.e., the "submitted manuscript," had
been rejected by a publisher. Cohen also informed
the College Committee that two of the three grants
fisted as pending in the dossier had not been funded
and that a decision on the third pending grant was
expected within a month.
Harsay also responded to the College Committee's
preliminary conclusion. In her letter, she explained
Appendix A

-7awhy she believed she had not been given proper
credit for her scholarship, the hardships that may
have affected her ability to publish more research
papers, and the impact of her work. Harsay admitted
difficulty in obtaining funding, speculating that it
was due to receiving less than the proper amount of
credit for some of her scholarship.
Victoria Corbin, the College Committee chair, in­
formed Harsay that, after reviewing her record, the
committee finally voted to reject the application for
promotion and tenure. Although the committee be­
lieved that Harsay met the criteria for teaching and
service, it "determined that [Harsay's] level of re­
search accomplishment [was] insufficient and did not
meet the criteria for promotion to Associate Profes­
sor." The College Committee then told Harsay that
her information would be forwarded to the Univer­
sity, Committee.
A letter from the College Committee to the Uni­
versity Committee, signed by Corbin, said the Col­
lege Committee's final vote was 7 to 0, with two ab­
stentions. In its evaluation summary, the College
Committee rated Harsay's teaching and professional
performance as "Very Good'V'Good," her overall serv­
ice as "Good," and her research and scholarship as
"Marginal"/"Poor." The College Committee letter also
incorrectly stated that Harsay had received only two
grants from the National Institutes of Health and
connected Harsay's lack of publications with a lack of
funding: "Lacking sufficient, long[-]term extramural
funding in molecular biosciences means fewer schol­
arly publications can be produced[,] which in turn
Appendix A

-8anegatively affects the ability of [Harsay] to remain
competitive for future funding."
The College's interim dean, Gregory B. Simpson,
wrote to the University Committee to state his
agreement with the College Committee's decision.
According to Simpson, Harsay's lack of scholarly ar­
ticles and inability to acquire sufficient extramural
funding outweighed the potential benefits of grant­
ing her tenure. In his letter, Simpson repeated the
incorrect statement that Harsay had secured only
"two smaller grants" instead of the five that she had
reported in the dossier. However, he correctly stated
that Harsay had two articles "while at KU." After
noting that all of the external reviewers had com" mented on Harsay's low research output, Simpson
suggested Harsay not be granted tenure "[b]ased on
her relatively weak research record at this point in
her career."
;
University Level
The University Committee conducted a prelimi­
nary vote on Harsay's application and rejected it,
pointing to Harsay's lack of "research productivity"
as the reason for her application's failure.
Per University rules, the University Committee
informed Simpson by letter that it had initially voted
to deny Harsay tenure and requested additional in­
formation to help it reach a final decision. It asked
why the department committee had rated "Professor
Harsay's research as very good in light of her low
productivity and the evaluation of her external reAppendix A

-9aviewers." It requested "[a]n assessment of the sus­
tainability of Professor Harsay's research program in
the absence of external funding." And it sought "[a]
report on the status of the NSF application under re­
view." The University Committee letter to Simpson
also stated that Harsay should be notified of the
committee’s initial decision and afforded an opportu­
nity to defend herself.
Cohen supplied information to Simpson in re­
sponse to the University Committee's request, saying
that the NSF grant was still pending but that "the
likelihood for funding is probably quite low as most
of the awards from this cycle have already been
made." He also defended the department's evaluation
of Harsay's research productivity and positively
commented on her funding sustainability.
Harsay also responded to the University Commit­
tee's initial decision. She acknowledged its concern
with the "sustainability of [her] research program"
and noted the potential impact of her research. She
asserted that funding should not be a problem for
her but recognized "my funding situation is currently
a hardship for my lab."
The same day, Simpson sent Interim Provost
Danny J. Anderson materials the College Committee
had collected when the University Committee re­
quested more information.
The University Committee ultimately rejected
Harsay's application for promotion and tenure on a 9
to 0 vote, with one abstention.

Appendix A

- 10aAnderson sent a letter to Harsay, informing her of
the University Committee's decision and stating he
agreed with it. He also forwarded the recommenda­
tion to the chancellor for her final decision. Ander­
son's letter to Harsay did not explain in detail why
he accepted the University Committee's recommen­
dation, but it did state "the [committee] has recom­
mended that you not be awarded tenure or promo­
tion to Associate Professor... based upon your record
of research productivity."
Faculty Rights Board Appeal
Harsay appealed the decisions of the College
Committee and the University Committee to the
Faculty Rights Board, claiming that her right to aca­
demic freedom had been violated.
The board rejected Harsay's claim, saying in a
short letter to Harsay, the chancellor, the associate >
general counsel for the University, the interim pro­
vost, and the vice provost that it found no substan­
tive violation of Harsay's rights as a faculty member,
as those rights were defined by the University's rules
and regulations. The board recommended that Har­
say's case be finally decided by the chancellor.
Chancellor's Decision
On April 23, 2010, Anderson sent a letter to Har­
say to inform her of the chancellor's decision. The let­
ter did not elaborate on rationale, stating simply:
"Chancellor [Bernadette] Gray-Little has decided to
accept the recommendation of the University ComAppendix A

- 11amittee on Promotion and Tenure not to award you
tenure or promotion to Associate Professor." The let­
ter also stated that, as a result, Harsay's employ­
ment by the University would terminate. The letter
itself was "intended to serve as a notice of final
agency action."
District Court Action
Harsay filed a timely petition for judicial review
of the University's promotion and tenure decision in
the Douglas County District Court. She alleged that
the decision was not supported by substantial evi­
dence and was unreasonable, arbitrary, or capri­
cious. See K.S.A. 2017 Supp. 77-621(c)(7), (8) (two of
eight grounds for reversal of agency decision under
the KJRA).
On June 21, 2012, Harsay's district court action
was dismissed for failure to prosecute. Nearly six
months later, on December 4, 2012, Harsay refiled
the case under the savings statute, K.S.A. 60-518,
which provides: "If any action be commenced within
due time, and the plaintiff fail in such action other­
wise than upon the merits, and the time limited for
the same shall have expired, the plaintiff... may
commence a new action within six (6) months after
such failure."
The district court ruled against Harsay on the
merits of her challenge to the University's decision,
holding that the University's denial of promotion and
tenure was supported by substantial evidence and
was not unreasonable, arbitrary, or capricious.
Appendix A

- 12a-

Court of Appeals Decision
Harsay appealed, and a panel of our Court of Ap­
peals reversed the district court's decision. Harsay v.
University of Kansas, No. 114292, 2016 WL 4069604,
at *8-9 (Kan. App. 2016) (unpublished opinion).
The panel cited the Administrative Procedure
Act, specifically the requirement in K.S.A. 77-526(c)
that a final order shall include
"separately stated, findings of fact, conclusions
of law and policy reasons for the decision if it is
an exercise of the state agency's discretion, for
all aspects of the order, including the remedy
prescribed and, if applicable, the action taken
on a petition for stay of effectiveness. Findings
of fact, if set forth in language that is no more
than mere repetition or paraphrase of the rele­
vant provision of law, shall be accompanied by
a concise and explicit statement of the underly­
ing facts of record to support the findings."
The panel ruled that meaningful appellate review
of the University's decision was impossible because
its factual findings and legal conclusions in the April
23, 2010, letter were "inadequate to disclose the con­
trolling facts or the basis of the agency's findings."
2016 WL 4069604, at *8.
The panel accurately pointed out that the College
Committee had incorrectly reported to the University
Committee that Harsay had only "'two small exter­
nal grants' from the NIH. This report of Dr. Harsay's
grant funding was materially in error," because she
had been awarded a total of five grants from two
Appendix A

- 13asources at the time of her tenure application. 2016
WL 4069604, at *8. The panel noted that the Univer­
sity Committee cited no basis for its recommendation
that tenure be denied other than Harsay's "record of
research productivity," and the chancellor accepted
the University Committee's recommendation. 2016
WL 4069604, at *5.
The panel then continued:
"If the chancellor had before her the correct
information on Dr. Harsay's scholarly works
and funded research grants over her years at
the University, would the chancellor have
made the same decision? The chancellor very
well may have arrived at the same conclusion
that Dr. Harsay should be denied tenure be­
cause of an inadequate record of research pro­
ductivity... [b]ut it is not for us to speculate on
whether the chancellor's decision would have
been different if she had before her a recom­
mendation from the University Committee
based on accurate information." 2016 WL
4069604, at *9.
The panel thus reversed the district court judg­
ment and remanded the case to the University to re­
start Harsay's promotion and tenure review process.
2016 WL 4069604, at *10.
DISCUSSION
Before reaching the dispositive K.S.A. 60-518 and
substantial evidence issues on petition for review, we
pause to discuss three preliminary matters briefly.
Appendix A

- 14a -

First, shortly before the docket to which Harsay's
case was assigned was set to begin, Harsay moved to
"immediately" file a conditional cross-petition for re­
view. Conditional cross-petitions were allowed for
the first time when we amended Supreme Court Rule
8.03, effective July 1, 2018. See Supreme Court Rule
8.03(a)(1). Harsay sought to address two issues —
the applicability of K.S.A. 60-518 and the appropri­
ate remedy for her tenure denial. Because these two
issues have already been exhaustively covered in
both parties' voluminous filings, including supple­
mental briefs to this court, we deny Harsay's motion.
This ruling on the merits of the motion eliminates
any necessity to address whether the motion was un­
timely or otherwise procedurally deficient.
Second, we agree with the University that the
KJRA provides the bulk of the statutory infrastruc­
ture supporting an action such as Harsay's, which
was filed in the district court to challenge a final
agency action with which she disagreed. Indeed,
Harsay invoked the KJRA's grounds for reversal in
her petition, asserting that the University's tenure
decision was not supported by substantial evidence,
see K.S.A. 2017 Supp. 77-621(c)(7), and was other­
wise unreasonable, arbitrary, or capricibus, see
K.S.A. 2017 Supp. 77-621(c)(8). The panel's citation
and quotation of the Administrative Procedure Act
demonstrated no contrary understanding of the gov­
erning law in a judicial review action. It merely sup­
ported the panel's observations of the bare-bones na­
ture of the University's notice of the decisions made
at two levels of Harsay's tenure review. These obser­
vations and inaccuracy in the count of Harsay's
Appendix A

-15agrants when the College Committee reported its out­
come to the University Committee combined to make
the panel lose confidence in its ability to perform its
mandatory role under the KJRA. See K.S.A. 77-606
(KJRA "exclusive means of judicial review of agency
action"). This is not the same thing as disregarding
or misunderstanding that role, as the University
contends.
Third, we must address preservation of the K.S.A.
60-518 issue. Ordinarily we would not permit a party
to raise an issue for the first time in a petition for re­
view. However, an absence of subject matter jurisdic­
tion can be raised at any time — by a party or by the
court sua sponte, see Stechschulte v. Jennings, 297
Kan. 2, 29, 298 P.3d 1083 (2013) (citing MidContinent Specialists, Inc. v. Capital Homes, 279
Kan. 178, 185, 106 P.3d 483 [2005]); Ternes u. Galichia, 297 Kan. 918, 921, 305 P.3d 617 (2013) (citing
Vorhees v. Baltazar, 283 Kan. 389, 397, 153 P.3d
1227 [2007]) — and compliance with any applicable
time limit for challenging an agency action is re­
quired to endow a reviewing court with subject mat­
ter jurisdiction. See, e.g., Pieren-Abbott u. Kansas
Dep't of Revenue, 279 Kan. 83, 99, 106 P.3d 492
(2005) ("'The rule is well established that the time
for taking an administrative appeal, as prescribed by
statute, is jurisdictional and delay beyond the statu­
tory time is fatal.’"); W.S. Dickey Clay Mfg. Co. v.
State Corp. Comm'n of State, 241 Kan. 744, 749, 740
P.2d 585 (1987) (time limitation for administrative
appeal jurisdictional, failure to appeal within statu­
tory limit fatal); Lakeview Village, Inc. v. Board of
Johnson County Comm'rs, 232 Kan. 711, Syl. ^ 5,
Appendix A

-16a659 P.2d 187 (1983) (same); Vaughn v. Martell, 226
Kan. 658, 661, 603 P.2d 191 (1979) (same). We thus
permit the University to raise and argue its position
that K.S.A. 60-518 should have been unavailable to
make Harsay's refiled KJRA action timely. We see no
unfairness in this approach, as Harsay has had am­
ple opportunity to rebut the University on this point.
K.S.A. 60-518
Having disposed of the three preliminary matters,
we turn next to the merits of whether K.S.A. 60-518
applied to save Harsay's case and preserve subject
matter jurisdiction. Because this issue requires in­
terpretation or construction of K.S.A. 60-518 and the
KJRA, we exercise unlimited review. Neighbor v.
Westar Energy, Inc., 301 Kan. 916, 918, 349 P.3d 469
(2015) (statutory interpretation, construction raise
questions of law re viewable de novo). And
"'[t]he fundamental rule to which all other
rules are subordinate is that the intent of the
legislature governs if that intent can be ascer­
tained. When language is plain and unambigu­
ous, there is no need to resort to statutory con­
struction. An appellate court merely interprets
the language as it appears; it is not free to
speculate and cannot read into the statute lan­
guage not readily found there."’ In re Estate of
Strader, 301 Kan. 50, 55, 339 P.3d 769 (2014).
Under the KJRA, "[a] petition for judicial review
of a final order shall be filed within 30 days after
service of the order." K.S.A. 2017 Supp. 77-613. The
Appendix A

- 17aparties do not dispute that Harsay initially complied
with this deadline by filing her district court petition
for judicial review within 30 days of receiving notice
of the chancellor's decision. While the action was
pending, the 30-day jurisdictional time limit expired.
Again, nearly two years later, Harsay's action
was dismissed for failure to prosecute. Within six
months of that dismissal, Harsay refiled her KJRA
action, relying on K.S.A. 60-518 to make it timely de­
spite the expiration of the 30 days.
K.S.A. 60-518 is not a part of the KJRA but of the
Code of Civil Procedure. The University therefore ar­
gues that it cannot apply in this case. But, in PierenAbbott v. Kansas Dept, of Revenue, we held that pro­
visions of the Code of Civil Procedure can apply to
appeals taken under the KJRA "if the provision is a
logical necessity that is not addressed within the
KJRA." 279 Kan. at 97, 106 P.3d 492. In that case,
we observed that the procedural rights created by
the KJRA are "'in addition to those created and im­
posed by other statutes."' 279 Kan. at 96, 106 P.3d
492. And we relied upon summons and service of
summons provisions in K.S.A. 8-1020(o) and in the
Code of Civil Procedure, specifically K.S.A. 2003
Supp. 60-303, to allow review under the KJRA "to
come into being." 279 Kan. at 97, 106 P.3d 492. The
KJRA lacked the provisions borrowed from K.S.A. 81020(o) and K.S.A. 2003 Supp. 60-303; importing
them qualified as a "logical necessity." 279 Kan. at
97, 106 P.3d 492.
Although Pieren-Abbott could support application
of K.S.A. 60-518 in this case because the KJRA lacks
Appendix A

-18aa savings provision, we need not go so far as to say
that any savings provision is a "logical necessity" for
the KJRA to perform its function. Rather, we can
look to the plain language of K.S.A. 60-518 itself,
which states unequivocally that it applies to "any ac­
tion" that is commenced within "due time" and that
fails "otherwise than upon the merits" when "the
time limit for the same shall have expired." (Empha­
sis added.) This broad language encompasses a suit
such as Harsay's, and this straightforward reading of
it is "'the best and only safe rule for ascertaining the
intention of lawmakers.'" Neighbor, 301 Kan. at 919,
349 P.3d 469. Thus we hold that K.S.A. 60-518 was
correctly employed by the district court to allow Har­
say's refiled action to proceed.
Substantial Evidence
With the subject matter jurisdiction question an­
swered, we turn to the merits of the University's de­
cision: Was the denial of promotion and tenure to
Harsay, as required by K.S.A. 2017 Supp. 77621(c)(7), "based on a determination of fact, made or
implied by the agency" that was "supported to the
appropriate standard of proof by evidence that is
. substantial when viewed in light of the record as a
whole"?
We have frequently defined "substantial compe­
tent evidence" as "that which possesses both rele­
vance and substance and which furnishes a substan­
tial basis in fact from which the issues can reasona­
bly be resolved." See, e.g., State v. Sharp, 289 Kan.
72, 88, 210 P.3d 590 (2009). "Substantial competent
Appendix A

-19aevidence," as that phrase is used in myriad cases, is
essentially equivalent to "evidence that is substan­
tial" under K.S.A. 2017 Supp. 77-621(c)(7). See At­
kins v. Webcon, 308 Kan. 92, 96, 419 P.3d 1 (2018)
(equating "substantial competent evidence" to "evi­
dence 'that is substantial’").
In addition, the KJRA elaborates on the phrase,
"in light of the record as a whole," in K.S.A. 2017
Supp. 77-621(d):
"For purposes of this section, 'in light of the
record as a whole' means that the adequacy of
the evidence in the record before the court to
support a particular finding of fact shall be
judged in fight of all the relevant evidence in
the record cited by any party that detracts from
such finding as well as all of the relevant evi­
dence in the record ... cited by any party that
supports such finding.... In reviewing the evi­
dence in fight of the record as a whole, the
court shall not reweigh the evidence or engage
in de novo review."
The choices involved in the decision to recom­
mend or deny tenure are inherently subjective, in­
volve a series of discretionary decisions made by
various groups of people, and are based in part on
the business judgment of the University. See Romkes
v. Univ. of Kansas, 49 Kan.App. 2d 871, 889-91, 317
P.3d 124 (2014) (discussing cases in the context of
employment discrimination and tenure). In this case,
the Court of Appeals was rightfully concerned with
the lack of detail informing Harsay of the chancel­
lor's final call.
Appendix A

-20a-

But we do not agree with the panel's assertion
that meaningful judicial review was precluded.
While the notice of the chancellor's decision was
short on details, it did say that the chancellor was
accepting the recommendation of the University
Committee. And the University Committee stated it
initially rejected Harsay's application because it was
concerned with her research productivity. This con­
cern was reiterated when it had taken its final vote.
Furthermore, Harsay explicitly recognized herself
that her research record was somewhat thin — a
primary concern for the University. The bottom line
is that the existence of this concern and the reasons
for it are supported at multiple points in the record
of the multilayered tenure review process, including
in the expressed misgivings of outside peer review­
ers.
Harsay is correct when she states that the num­
ber of her funded grants was misstated in the Col­
lege Committee letter signed by Corbin and in the
letter from Simpson, and both misstatements are
parts of the KJRA "record as a whole." But there is
ample other material in the record correctly stating
the number of grants, and the University's rules pro­
vide clearly that each level of tenure review makes
its own evaluation separately from each other level.
Harsay directs our attention to no evidence, substan­
tial or otherwise, that demonstrates that the Univer­
sity Committee or the chancellor deviated from their
responsibilities to review all materials and arrive at
independent conclusions.
In sum, "in light of the record as a whole," we see
plenty of "evidence that is substantial" under K.S.A.
Appendix A

-21a2017 Supp. 77-621(c)(7) to support the University's
decision to deny Harsay promotion and tenure. The
single inaccuracy twice mentioned on a subject that
was but one feature of one criterion in the threecriterion evaluation process did not fatally pollute
that process or necessarily detract from or destroy
the many accurate elements the decision makers had
before them. Harsay's identification of that inaccu­
racy is not enough to meet her burden to show a lack
of the required evidence under K.S.A. 2017 Supp. 77621(c)(7). Indeed, if we treated this identification
otherwise, we would be derelict in our duty to con­
sider the case "in light of the record as a whole."
Finally, we note that Harsay also attempted in
the district court and before the Court of Appeals to
challenge the University's decision as "otherwise un­
reasonable, arbitrary or capricious" under K.S.A.
2017 Supp. 77-621(c)(8). She also added an argument
before the Court of Appeals that the University in­
correctly applied the law under K.S.A. 2017 Supp.
77-621(c)(4), because it relied on finances as well as
her scholarship, teaching, and service in denying her
promotion and tenure.
As with the question of whether the record as a
whole contained substantial evidence to support the •
University's decision, the Court of Appeals did not
reach the merits of these two distinct challenges by
Harsay. Nor did it address any potential preserva­
tion problem with the K.S.A. 2017 Supp. 77-621(c)(4)
argument advanced for the first time on appeal.
We do not reach the merits of these challenges
today because we consider them abandoned. Harsay
Appendix A

-22aopposed granting the University's petition for review,
did not file a cross-petition for review, and did not
attempt to raise either of these two challenges
through her eventual motion to file a conditional
cross-petition for review. See State v. Funk, 301 Kan.
925, 932-33, 349 P.3d 1230 (2015) (issues not fairly
included in petition or adequately briefed deemed
abandoned). The only petition for review this court
granted was filed by the University, and its merits
arguments focused only on K.S.A. 2017 Supp. 77621(c)(7). That issue has been addressed and re­
solved in the University's favor.
CONCLUSION
For the reasons set forth above, the Court of Ap­
peals decision is reversed and the judgment of the
district court is affirmed.
STEGALL, J., not participating.
JEFFREY E. Goering, District Judge, assigned. [1]
GOERING, J., concurring:
I agree with the majority that there is substantial
evidence in the administrative record as a whole to
support the University's decision to deny Edina Harsay promotion and tenure. I write separately because
I respectfully disagree with the majority that K.S.A.
60-518 can be applied to actions arising under the
Kansas Judicial Review Act (KJRA).
"In construing statutes and determining legisla­
tive intent, several provisions of an act, in pari mate­
ria, must be construed together with a view of reconAppendix A

-23aciling and bringing them into workable harmony if
possible. [Citation omitted.]" State v. Brown, 272
Kan. 843, 847, 35 P.3d 910 (2001). Accordingly, while
the language of K.S.A. 60-518 is broad, that language
cannot be considered in a vacuum. K.S.A. 60-518
must be construed with the rest of Article 5 in order
to determine the scope of its application. K.S.A. 60501 plainly limits the application of K.S.A. 60-518 to
civil actions: "The provisions of this article govern
the limitation of time for commencing civil actions,
except where a different limitation is specifically
provided by statute." (Emphasis added.)
It is well established that administrative appeals
to the district court are not "civil actions." In re
Gantz, 10 Kan.App. 2d 299, 302, 698 P.2d 385 (1985);
see also Kansas Turnpike Authority v. Jones, 7
Kan.App. 2d 599, Syl. H 1, 645 P.2d 377 (1982) (an
appeal to the district court from an administrative
decision is not the commencement of a civil action).
Rather, administrative appeals are "in the nature of
'judicial review'" of agency decisions. Flanigan v.
City of Leavenworth, 232 Kan. 522, 528, 657 P.2d 555
(1983); see also Nurge v. University of Kansas Med.
Center, 234 Kan. 309, 316, 674 P.2d 459 (1983) (the
district court in an administrative appeal is a court
of error and review). As such, the Legislature never
intended K.S.A. 60-518 to be applied to administra­
tive appeals taken under the KJRA.
In Pieren-Abbott v. Kansas Dept, of Revenue, 279
Kan. 83, 106 P.3d 492 (2005), this court held that
provisions of the Code of Civil Procedure can be ap­
plied to appeals taken under the KJRA "if the provi­
sion is a logical necessity that is not addressed under
Appendix A

- 24a -

the KJRA." 279 Kan. at 97, 106 P.3d 492. In PierrenAbbott, this court addressed the service of a sum­
mons necessary to initiate judicial review of an ad­
ministrative decision suspending driving privileges.
This court held that because the service of a sum­
mons was required to effectuate judicial review, but
the method of serving process was not mentioned in
the KJRA, the use of the Code of Civil Procedure be­
came a "logical necessity." 297 Kan. at 97, 298 P.3d
333.
The KJRA does not have a savings statute. Nev­
ertheless, the savings statute in K.S.A. 60-518 is not
necessary to carry out the functions of the KJRA.
Thus, the application of K.S.A. 60-518 to the KJRA is
not a "logical necessity" in order for judicial review of
an agency action to take place. To the contrary, as
the facts of this case demonstrate, the application of
the savings statute to administrative appeals defeats
the purpose of K.S.A. 77-613(d) which ensures the
timely commencement of judicial review of an
agency's final order by requiring that a petition for
judicial review be filed within 30 days after the
agency action.
For the foregoing reasons I would find that Harsay's appeal to the district court was not initiated
within the time prescribed by K.S.A. 77-613(d) and
would dismiss the appeal on that basis.
[1] REPORTER'S NOTE: District Judge Goering was ap­
pointed to hear case No. 114,292 vice Justice Stegall under the
authority vested in the Supreme Court by art. 3, § 6(f) of the
Kansas Constitution.

Appendix A

-lbNOT DESIGNATED FOR PUBLICATION
No. 114,292

IN THE COURT OF APPEALS OF
THE STATE OF KANSAS
EDINA HARSAY, Appellant,
v.
THE UNIVERSITY OF KANSAS,
Appellee.
MEMORANDUM OPINION
Appeal from Douglas District Court; ROBERT W.
FAIRCHILD, judge. Opinion filed July 29, 2016.
Reversed and remanded with directions.
Edina Harsay, of Lawrence, appellant pro se.
Sara L. Trower, associate general counsel and
special assistant attorney general, for appellee.
Before GREEN, P.J., MCANANY and ATCHESON,
JJ.
Per Curiam: Dr. Edina Harsay, a former assistant
professor in the Department of Molecular Biosciences
at the University of Kansas (University), appeals the
ruling of the district court finding no legal impropri­
ety in the University's decision to deny her promo­
tion to associate professor with tenure.
Dr. Harsay joined the University's faculty in
January 2004 as an assistant professor in the DeAppendix B

-2bpartment of Molecular Biosciences on track for a pos­
sible tenured position. The University's tenure track
is a 7-year up-or-out process. Under this process,
Harsay was on probation for a period of 7 academic
years. During 2009, the sixth year of her employ­
ment, the University conducted a review to deter­
mine her eligibility for tenure.
The University denied tenure, so Harsay was
terminated from her position at the end of her sev­
enth year, the 2010-2011 academic year.
Tenure Review Process

i

At the time of Dr. Harsay's promotion and tenure
review, the University's procedure involved a multi­
level review process set forth in the University's
Faculty Senate Rules and Regulations (FSRR), Arti­
cle VI. In Dr. Harsay's case, the Department of Mo­
lecular Biosciences conducted the initial review of
her application for promotion and tenure; the College
of Liberal Arts and Science's College Committee on
Appointments, Promotion, and Tenure (College
Committee) conducted the intermediate level review;
and the University Committee on Promotion and
Tenure (University Committee) conducted the uni­
versity level review. After the university level re­
view, Dr. Harsay's complete promotion and tenure
application, including the recommendations of each
review committee, was forwarded to the University's
chancellor for a final determination on tenure. The
chancellor's decision was the final agency action, and
no further administrative review was permitted fol­
lowing the chancellor's decision.
Appendix B

-3b-

The FSRR required that Dr. Harsay's application
receive an independent review at each review level:
"Each level of review, including the initial re­
view, the intermediate review . . . , and the
university level review, conducts an independ­
ent evaluation of a candidate's record of per­
formance and makes independent recommen­
dations to the Chancellor. Later stages of re­
view neither affirm nor reverse earlier recom­
mendations, which remain part of the record
for consideration by the Chancellor. It is the
responsibility of each person involved in the
review process to exercise his or her own
judgment to evaluate a faculty member's
teaching (or professional performance), schol­
arship, and service based upon the entirety of
the data and information in the record. No
single source of information, such as peer re­
view letters, shall be considered a conclusive
indicator of quality."
The provost was required to provide "guidelines
for compiling and evaluating a candidate's record."
FSRR § 6.3.4. Under FSRR § 6.3.4.2, those guidelines
were to include
"a summary evaluation section to be prepared
by the committee at each level and shared
with the candidate upon completion of the ini­
tial review and intermediate review, if one is
conducted. The evaluation section shall in­
clude:

Appendix B

-4b"(a) the recommendation of the committee, its
rating of the candidate in the areas of
teaching (or professional performance),
scholarship, and service, and a statement of
the reasons for those ratings."
The University's promotion and tenure standards
provide:
"6.2.3. Scholarship. Scholarship is an essential
component of the University's mission as a
center of learning, and the award of tenure
and/or promotion in rank must be based on a
record of accomplishment reflecting a sustain­
able program of scholarly activity. Evaluation
of scholarship must be undertaken in light of
the expectations of the discipline."
Under section 6.2.3.1, scholarship includes "tradi­
tional academic research and publication." Under
section 6.2.3.2, in considering a promotion to a ten­
ured position the reviewers consider the quality and
quantity of the candidate's publications, "external
reviews of the candidate's work by respected scholars
or practitioners in the field, the candidate's regional,
national, or international reputation, and other evi­
dence of an active and productive scholarly agenda."
The departmental review criteria further provide:
"A ranking of 'very good' in research requires
publication of original work in peeredreviewed journals. It is essential that this
work includes research that was carried out at
[the University], or is otherwise distinguish­
able from studies conceived by the faculty
Appendix B

-5bmember's doctorate and post-doctorate advi­
sors. The quality and quantity of the published
work needs to be sufficiently high to establish
the faculty member as an important contribu­
tor to his or her field. It is also essential that
the faculty member has demonstrated success
at obtaining extramural funding to support
his/her research program and that there is a
reasonable level of assurance that they will
maintain a productive research program of
high scholarship for the foreseeable future."
Departmental Review
In 2009, consistent with the University's promo­
tion and tenure procedures, Dr. Harsay submitted an
application for promotion and tenure with support­
ing materials showing her record of achievement. In
her application, Dr. Harsay stated that since her ap­
pointment at the University she had
• 1 published journal article
• 1 "paper in press"
• 1 submitted manuscript.
With respect to research grants, she reported the
following five funded grants:
1.

National Institutes of Health (NIH) R21
NS061754-01 ($138,934 total cost; $25,000 ad­
ditional direct cost pending approval of second
stage of project; 9/30/07—8/31/09 plus re­
quested extension)
Appendix B

-6b2.

American Heart Association, 0760054Z
($143,000 total cost; 1/1/2007—12/31/2008)

3.

NIH X01MH077628-01 (resource award, 5/10/
2006—1/31/2007)

4.

NIHR03NS050784 ($70,000 total cost; 9/30/
2004—8/30/2006)

5.

NIH P20 RR15563 ($250,000 total cost; 8/1/
2004—4/30/2007).

She reported three additional pending research
grants:
1.

NIH1R01GM ($1,795,027 total cost; 04/01/
2010—03/31/2015)

2.

National Science Foundation ($1,388,027 total
cost; 01/01/2010—12/31/2014)

3.

Department of Defense ($404,329 total cost;
01/01/2010—12/31/2011).

She also had submitted eight grant proposals that
had not been funded. These were to the American
Cancer Society, the Prevent Cancer Foundation, the
National Science Foundation, and five to the NIH.
Dr. Harsay also provided with her application the
evaluations of seven external reviewers, who had
commented on her application for promotion and
tenure. The reviews were generally favorable to Dr.
Harsay, though several reviewers were concerned
her publication rate was low for a tenure candidate
in her field. A reviewer also expressed that it may be

Appendix B

-7bdifficult for Dr. Harsay to maintain an externally
funded research program with a low publication rate.
The six-member Departmental Committee voted
five to one in favor of tenure. A majority of the com­
mittee members rated Dr. Harsay's teaching and re­
search records as "Very Good," and the committee
unanimously rated her service record as "Very
Good."
In its recommendation letter to the College Com­
mittee, the Departmental Committee discussed Dr.
Harsay's research record:
"Dr. Harsay currently has one paper published
based on research she has performed at [the
University].
"In addition, she has two manuscripts cur­
rently submitted for publication. A revised
version of [one of the manuscripts] is currently
undergoing review. The editor of the paper has
written our department chair, Dr. Robert Co­
hen, explaining his great interest in publish­
ing the manuscript, and his expectation that
the current version will be accepted for publi­
cation. . . .
"A third manuscript has been submitted to
[another academic journal]. This is also a sub­
stantial paper, with a total of 10 figures and
tables. ...

Appendix B

-8b. . Dr. Harsay has also been successful at ob­
taining significant grant support for her re­
search. She has been funded by the Cancer
Experimental Therapeutics COBRE as a pro­
ject [primary investigator], and by the Ameri­
can Heart Association grant. Her high
throughput screening and characterization of
the compounds she identified has been funded
by an NIH R03 award, an NIH X01 Resource
Award, and is currently funded by an NIH
R21. She currently has proposals under review
at the NIH, the NSF, and the Department of
Defense."
In its evaluation, the Departmental Committee
concluded:
"Overall, Dr. Harsay's major publication re­
cord consists of 2 strong papers submitted for
publication, (of which one seems very likely to
be accepted) and one extremely strong pub­
lished paper. Her outside review letters con­
firm that Dr. Harsay's contributions are of ex­
tremely high quality. At the same time, the
outside reviews all mention that Dr. Harsay's
productivity ... could be higher. She has thus
far been successful at obtaining sufficient
grant support to maintain a laboratory with
an active research program capable of generat­
ing data of extremely high quality, and that
has had a significant impact on her field."
On October 14, 2009, the Departmental Commit­
tee gave its recommendation to the tenured faculty
members of the Molecular Biosciences Department.
Appendix B

— 9b —

The faculty members voted 11 to 6 to recommend
promotion to associate professor with tenure. Two of
the favorable votes were cast as "exceeds expecta­
tions," and nine of the favorable votes were cast as
"meets expectations."
When the Departmental Committee advised the
College Committee of this action, the department's
chair, Dr. Robert Cohen, provided to the College
Committee an evaluation of Dr. Harsay's application
and discussed her research record. Dr. Cohen com­
mented: "The question of quantity versus quality was
.. . at the center of the Department's discussion of
Dr. Harsay's promotion and tenure dossier."
College of Liberal Arts and Sciences Review
At the intermediate level of review, the nineperson College Committee performed an initial re­
view of Dr. Harsay's application and determined she
did not meet the criteria for promotion and tenure,
noting its decision was "largely based on research
productivity."
On December 9, 2009, before issuing a final rec­
ommendation, the College Committee contacted Dr.
Cohen and requested updated information concern­
ing Dr. Harsay's research papers, either submitted or
accepted for publication, and the status of any pend­
ing research proposals.
On December 14, 2009, Dr. Cohen responded to
the College Committee's inquiry. In the letter, he ex­
plained that Dr. Harsay had two published journal
articles and a third article which had been rejected
Appendix B

-10b-

despite generally favorable reviews. The publica­
tion's editor encouraged her to resubmit the paper
after addressing the reviewers' comments. Dr. Cohen
noted that Dr. Harsay planned to resubmit the third
article within the month. With regard to research
grants and proposals, Dr. Cohen provided an update
on Dr. Harsay's research grants:
"Three grants, one each to the NIH, NSF, and
Department of Defense (DOD), were listed as
pending on Dr. Harsay's Blue Book
"The NIH and DOD grants were not funded.
"Dr. Harsay's NSF grant is still pending. My
understanding is that she spoke to her pro­
gram administrator yesterday and was told
that a decision on the grant should be ren­
dered within a month."
On December 15, 2009, Dr. Harsay also submit­
ted a written response, which further discussed her
research record and sought reconsideration of the
committee's initial determination.
The College Committee voted seven to zero, with
two abstentions, to recommend against a promotion
to associate professor with tenure. In making its rec­
ommendation, the committee rated Dr. Harsay's
teaching as "Very Good"/"Good," her service as
"Good," and her research scholarship as "Marginal"/
"Poor."
In his December 28, 2009, letter, Dr. Corbin in­
formed Dr. Harsay of the College Committee recom­
mendation and explained:
Appendix B

— lib —

"The committee arrived at our assessment of
your work after a careful consideration of your
statements on the blue form, your record of
teaching, research, and service, peer evalua­
tions of your teaching, and outside reviews of
your scholarship. We concluded that your re­
cord of teaching evaluations, teaching materi­
als, and other assessments show work that ex­
ceeds departmental standards for promotion
and tenure. Your record of service also met cri­
teria for promotion and tenure. However, [the
College Committee] determined that your level
of research accomplishment is insufficient and
did not meet the criteria for promotion to As­
sociate Professor. For these reasons, the com­
mittee has not recommended you for promo­
tion to associate professor with tenure."
On December 28, 2009, Interim Dean Gregory
Simpson concurred with the College Committee's
negative recommendation. In his letter to the Uni­
versity Committee but not to Dr. Harsay, he stated:
"Although Professor Harsay's teaching and
service meet the criteria for promotion and
tenure, her research does not. Her scholarly
output has been low (two articles while at [the
University]), and she has not been successful
in securing significant extramural funding to
support her research (although she has re­
ceived two smaller grants). She works in an
area in which such funding is necessary to
sustain a productive research program, and
the failure to obtain such resources further
hurts her ability to publish her work at an apAppendix B

- 12b-

propriate rate. Her external reviewers all
noted that her research output was low."
Interim Dean Simpson concluded, based on her
"relatively weak research record at this point in her
career," Dr. Harsay did not qualify for promotion to
associate professor with tenure.
Also on December 28, 2009, Dr. Victoria Corbin,
the chair of the College Committee, advised the Uni­
versity Committee of the College Committee's rec­
ommendation, stating:
"[T]he [College Committee] agreed with out­
side evaluators in her discipline who com­
mented on low research productivity (2 pub­
lished paper) as an issue in her tenure appli­
cation. In addition, [the College Committee]
notes that she has been unable to successfully
compete for significant extramural funding,
although she did have two small external
grants from the National Institutes of Health.
The department expectations include '. .. the
faculty member's ability to obtain the funding
needed to support his or her research program
in the long-term.' Lacking sufficient, long term
extramural funding in molecular biosciences
means fewer scholarly publications can be
produced which in turn negatively affects the
ability of the investigator to remain competi­
tive for future funding. . .. [The College Com­
mittee] believes that this overall low level of
scholarly accomplishment is insufficient and
does not meet expectations for promotion to
the rank of Associate Professor."
Appendix B

- 13bIn reporting these results to Dr. Harsay, the Col­
lege Committee only provided the conclusory state­
ment that her research accomplishments were insuf­
ficient. On the other hand, the College Committee
provided a more detailed explanation to the Univer­
sity Committee. The College Committee reported
that Dr. Harsay had "been unable to successfully
compete for significant extramural funding, although
she did have two small external grants from the Na­
tional Institutes of Health."
University Review
At the university level of review, the University
Committee, comprised of 10 voting members broadly
representative of the faculty, reviewed Dr. Harsay's
application for promotion to associate professor with
tenure. After completing an initial review of the prior
recommendations, the University Committee in­
formed Dr. Harsay that it had voted that she did not
meet the criteria for promotion and tenure based on
her record of research productivity.
On February 11, 2010, in order to aid in reaching
a final determination, the committee requested the
following additional information: (1) a report on the
status of Dr. Harsay's NSF application; (2) a basis for
the department's evaluation of Dr. Harsay's research
as "very good" considering her low research produc­
tivity and the evaluation of the external reviewers;
and (3) an assessment of the sustainability of Dr.
Harsay's research program in the absence of external
funding.

Appendix B

- 14b On February 17, 2010, Dr. Cohen provided the
University Committee with the requested additional
information. Dr. Cohen, the acting chair of the De­
partment of Molecular Biosciences, stated the NSF
grant application was still pending but noted Dr.
Harsay "should be able to finish two ongoing projects
within the next year, each leading to the publication
of a peer-reviewed research article." Dr. Cohen also
noted that Dr. Harsay's research was gaining mo­
mentum in terms of excitement and had a good
chance of being funded in the near future. With re­
gard to the Departmental Committee's rating, he ex­
plained: "There is a persuasive sentiment in the de­
partment that Dr. Harsay is capable of hitting a
homerun. She is totally dedicated to her science." He
further explained that Dr. Harsay's research had
produced seminal or near-seminal publications and
her current research appeared likely to boost her ca­
reer and greatly enhance her prospects for future
funding.
In February 22, 2010, Interim Dean Simpson
hand delivered to the interim provost the additional
documents the College Committee had collected re­
garding Dr. Harsay.
The University Committee voted nine to zero to
deny promotion to associate professor with tenure,
with one committee member abstaining.
On March 4, 2010, Interim Provost and Executive
Vice Chancellor Danny Anderson informed Dr. Har­
say of the University Committee's negative recom­
mendation. In the letter, he advised Dr. Harsay of
her options to either provide the chancellor a written
Appendix B

-15bresponse to the negative recommendation or file an
appeal with the University's Faculty Rights Board.
Anderson stated: "This recommendation has been
forwarded to Chancellor Gray-Little for her review
and final decision." The parties do not cite, and we do
not find, any specific findings by the University
Committee to support its recommendation other than
a reference to Dr. Harsay's deficient "record of re­
search productivity."
Faculty Rights Board Appeal
On March 15, 2010, Dr. Harsay appealed the
University Committee's decision to the Faculty
Right's Board, claiming "the lack of fair representa­
tion by natural scientists [in the review process] ...
resulted in the use of inappropriate review criteria ...
in violation of [her] academic freedom rights." At this
point, she was not aware of the mistake made by the
College Committee in reporting,to the University
Committee her history of research grant funding.
The Board reviewed Dr. Harsay's appeal on April
2, 2010, and ultimately denied it, finding no substan­
tive violations to faculty rights as defined in the Uni­
versity's rules and regulations.
Chancellor Review
On April 23, 2010, Interim Provost Anderson in­
formed Dr. Harsay of the chancellor's decision. The
substantive portion of the letter is as follows:

Appendix B

-16b"Affcer careful review, Chancellor Gray-Little
has decided to accept the recommendation of
the University Committee on Promotion and
Tenure not to award you tenure or promotion
to Associate Professor at the University of
Kansas.
"In accordance with the polices of the Kansas
Board of Regents and the Rules and Regula­
tions of the Faculty Senate, I am notifying you
that your appointment for the 2010-2011 aca­
demic year will be a terminal appointment."
District Court Review
Dr. Harsay filed a petition for judicial review in
the Douglas County District Court. About 2 years
later, on June 21, 2012, the case was dismissed with­
out prejudice for failure to prosecute. Almost 6
months later, on December 4, 2012, Dr. Harsay re­
filed her petition in the district court seeking judicial
review of the University's action. The University
filed its responsive pleading in mid-January 2013. A
scheduling order was entered the next month, and
Dr. Harsay filed her supporting brief on April 8,
2013. In her supporting brief, Dr. Harsay contended
the University's decision to deny her promotion to
associate professor with tenure was not supported by
substantial evidence and was otherwise unreason­
able, arbitrary, or capricious.
The University filed its brief in June 2013, and
Dr. Harsay filed her reply brief the following month.
The district court then took the matter under adAppendix B

- 17bvisement. Almost 2 years later, on June 24, 2015, the
district court issued a memorandum decision ruling
in favor of the University. The district court found
that the University's action was supported by sub­
stantial evidence and was not unreasonable, arbi­
trary, or capricious.
Dr. Harsay appeals. The appeal was perfected
and briefing was complete in March 2016. The mat­
ter was placed on the first available Court of Appeals
docket in May 2016. Thus, our first opportunity to
consider the issues raised by Dr. Harsay is 6 years
after the chancellor's decision.
Analysis
On appeal, Dr. Harsay asserts: (1) the Univer­
sity's action was unreasonable, arbitrary, or capri­
cious; (2) the district court erred in ruling that sub­
stantial competent evidence supported the Univer­
sity's decision; and (3) the University misinterpreted
or misapplied the law in denying her promotion to
associate professor with tenure.
The Kansas Judicial Review Act (KJRA) governs
an appellate court's review of an agency decision.
K.S.A. 77-601 et seq.; Herrera-Gallegos v.H & H De­
livery Service, Inc., 42 Kan. App. 2d 360, 361-62, 212
P.3d 239 (2009). An appellate court presumes the
agency action was valid; on appeal, the party claim­
ing an invalid action of the agency has the burden of
establishing such invalidity. K.S.A. 2015 Supp. 77621(a)(1); Romkes v. University of Kansas, 49 Kan.
App. 2d 871, 880, 317 P.3d 124 (2014). An appellate
Appendix B

- 18bcourt exercises the same statutorily limited review of
an agency action as does a district court—as though
the appeal had been made directly to the appellate
court. Kansas Dept, of Revenue v. Powell, 290 Kan.
564, 567, 232 P.3d 856 (2010); Romkes, 49 Kan. App.
2d at 880.
Dr. Harsay argues that because the explanations
that were given for recommending the denial of pro­
motion and tenure were contradicted by the facts in
the record, the University's decision to deny her
promotion to associate professor with tenure was not
supported by substantial evidence and was unrea­
sonable, arbitrary, or capricious.
The Agency's Findings
In advising Dr. Harsay of the chancellor's deci­
sion, the interim provost stated: "The University of
Kansas is an agency of the State of Kansas, and this
letter is intended to serve as a notice of a final
agency action by the University of Kansas." K.S.A.
77- 526(c) requires:
"A final order or initial order shall include,
separately stated, findings of fact, conclusions
of law and policy reasons for the decision if it
is an exercise of the state agency's discretion,
for all aspects of the order, including the rem­
edy prescribed and, if applicable, the action
taken on a petition for stay of effectiveness.
Findings of fact, if set forth in language that is
no more than mere repetition or paraphrase of
the relevant provision of law, shall be accomAppendix B

-19bpanied by a concise and explicit statement of
the underlying facts of record to support the
findings."
Meaningful appellate review is precluded when
an administrative agency's factual findings and legal
conclusions are inadequate to disclose the controlling
facts or the basis of the agency's findings. Jones v.
Kansas State University, 279 Kan. 128, 142, 106 P.3d
10 (2005).
Dr. Harsay disclosed in her application for a pro­
motion and tenure that she had one published jour­
nal article, one revised manuscript that was cur­
rently undergoing review and was likely to be pub­
lished, and one manuscript that had been submitted
for publication. She also disclosed five funded re­
search grants while working at the University plus
three additional pending grant applications. In rec­
ommending a promotion and tenure, the Departmen­
tal Committee recognized these scholarly works and
her grant-funded research projects.
The matter was then sent to the College Commit­
tee. The College Committee initially voted against
tenure and requested that Dr. Cohen, acting chair of
the Department of Molecular Biosciences, provide an
update on Dr. Harsay's publications and research
grants.
Dr. Cohen responded that Dr. Harsay now had
two published articles; and although the third paper
had been rejected for publication, Dr. Harsay was
planning to resubmit it later that month after mak­
ing revisions in line with the reviewers' comments.
Appendix B

-20bWith regard to pending research grant applications,
Dr. Cohen reported that two had been turned down
and the third was still pending and should be de­
cided on within a month.
The College Committee then recommended to the
University Committee that Dr. Harsay not be pro­
moted, noting Dr. Harsay's two published papers and
Dr. Harsay's inability "to successfully compete for
significant extramural funding, although she did
have two small external grants" from the NIH. This
report of Dr. Harsay's grant funding was materially
in error to Dr. Harsay's disadvantage on a point of
substantial importance in the University's tenure de­
cision.
The matter was then sent to the University
Committee. The University Committee requested an
update from Dr. Cohen on Dr. Harsay's pending NSF
grant application. Dr. Cohen reported that the NSF
grant application was still pending. The University
Committee recommended to the chancellor that ten­
ure be denied "based upon [Dr. Harsay's] record of
research productivity." The University Committee
made no other findings in support of its decision.
In the final agency action, the chancellor "decided
to accept the recommendation of the University
Committee." The chancellor did not specify the basis
for the decision to deny tenure.
We could piece together the bases for the chancel­
lor's decision from the analysis of the recommenda­
tion of the University Committee if the University
Committee had made findings that were specific and
Appendix B

-21bconsistent with the record. Such was the case in
Romkes v. University of Kansas, 49 Kan. App. 2d
871, 888, 317 P.3d 124 (2014). But here, the sole ex­
pressed basis for the University Committee's recom­
mendation was Dr. Harsay's "record of research pro­
ductivity." That record apparently came from the
College Committee's recommendation which was
based on incorrect information.
We recognize that decisions on tenure involve a
"large mix of factors, from the subjective qualities of
the candidate to institutional priorities having noth­
ing to do with the candidate." Pyo v. Stockton State
College, 603 F. Supp. 1278, 1282 (D. N.J. 1985).
"[P] radical considerations make a challenge to the
denial of tenure at the college or university level an
uphill fight—notably the absence of fixed, objective
criteria for tenure at that level." Blasdel v. North­
western University, 687 F.3d 813, 815 (7th Cir. 2012).
As a result, courts are loath to interfere in tenure de­
cisions.
If the chancellor had before her the correct infor­
mation on Dr. Harsay's scholarly works and funded
research grants over her years at the University,
would the chancellor have made the same decision?
The chancellor very well may have arrived at the
same conclusion that Dr. Harsay should be denied
tenure because of an inadequate record of research
productivity. As stated in Blasdel, 687 F.3d at 816,
"In some academic fields . . . research requires costly
laboratories financed by grants from the federal gov­
ernment or from foundations. Proficiency in obtain­
ing grants is a highly valued capability in such fields;
and scholars differ in their ability to obtain grants."
Appendix B

-22bBut it is not for us to speculate on whether the chan­
cellor's decision would have been different if she had
before her a recommendation from the University
Committee based on accurate information. Such
speculation would turn our court into a "SuperTenure Review Committee." Lieberman v. Gant, 630
F.2d 60, 67 (2d Cir. 1980).
As a result, we see no alternative but to remand
this case for further consideration by the University's
various tenure committees, starting with the De­
partmental Committee, based on Dr. Harsay's cor­
rect history of research productivity and scholarly
works. See Jones, 279 Kan. at 142 (citing Gas Service
Co. v. Kansas Corporation Commission, 4 Kan. App.
2d 623, 626, 609 P.2d 1157, rev. denied 228 Kan. 806
[1980]) ("The appropriate remedy for inadequate
findings in a final order of an administrative agency
is to remand for additional findings of fact and con­
clusions of law.").
The timing of such an order is admittedly trou­
blesome. This comes over 6 years after the chancel­
lor's decision, and at least part of the delay can be
attributed to Dr. Harsay's inaction. An award of ten­
ure has significant ramifications for both the candi­
date and the educational institution, resulting in
something of an academic marriage. The relationship
is not a commitment to be entered into lightly or
based on a courtship from bygone years. Thus, it
would be improvident and unfair to both parties to
suggest the decision should now be based simply on a
review of the record compiled and considered in 2009
and 2010. Without some further consideration by the
University, we would be forced to rely on our own
Appendix B

-23b-

view of the current record and our sense of the sig­
nificance of Dr. Harsay's actual research productiv­
ity. And this we cannot do. Indeed, it would be the
worse available choice.
Rather, the tenure determination should be re­
turned to the initial stage at the departmental level.
Dr. Harsay should then supplement the existing ma­
terials with a detailed account of her relevant profes­
sional activities after leaving the University. Dr.
Harsay's candidacy for tenure then may be evaluated
through the customary process by academics and
administrators regularly charged with that duty, us­
ing a base of correct information freshly assembled to
facilitate the making of their decision.
Reversed and remanded for further proceedings.

Appendix B

— lc —

Case 114292 CLERCK OF THE APPELLATE COURTS
Filed 2019 Feb 28 AM 11:03
12 CV 625
IN THE SUPREME COURT OF
THE STATE OF KANSAS
No. 114,292
Edina Harsay,
Appellant,
v.
University of Kansas,
Appellee.

ORDER
The court has considered and denies Appellant’s
motion for rehearing or modification.
Appellee’s response is noted.
BY ORDER OF THE COURT this 28th day of Feb­
ruary 2019.

/si Lawton R. Nuss
Lawton R. Nuss:
Chief Justice
Stegall, J., recused.
Appendix C

-ldCONSTITUTIONAL AND STATUTORY PROVISIONS
Fourteenth Amendment to the Constitution of
the United States, Section 1:
All persons born or naturalized in the United
States, and subject to the jurisdiction thereof, are
citizens of the United States and of the State
wherein they reside. No State shall make or enforce
any law which shall abridge the privileges or immu­
nities of citizens of the United States; nor shall any
State deprive any person of life, liberty, or property,
without due process of law; nor deny to any person
within its jurisdiction the equal protection of the
laws.

Standards of Review under the Kansas Judicial
Review Act: Kan. Stat. Ann. § 77-621 et seq.
77-621. Scope of review.
(a) Except to the extent that this act or another stat­
ute provides otherwise:
(1) The burden of proving the invalidity of agency
action is on the party asserting invalidity; and
(2) the validity of agency action shall be deter­
mined in accordance with the standards of judi­
cial review provided in this section, as applied to
the agency action at the time it was taken.
(b) The court shall make a separate and distinct rul­
ing on each material issue on which the court's deci­
sion is based.
(c) The court shall grant relief only if it determines
any one or more of the following:
Appendix D

- 2d (1) The agency action, or the statute or rule and
regulation on which the agency action is based, is
unconstitutional on its face or as applied;
(2) the agency has acted beyond the jurisdiction
conferred by any provision of law;
(3) the agency has not decided an issue requiring
resolution;
(4) the agency has erroneously interpreted or ap­
plied the law;
(5) the agency has engaged in an unlawful proce­
dure or has failed to follow prescribed procedure;
(6) the persons taking the agency action were im­
properly constituted as a decision-making body or
subject to disqualification;
(7) the agency action is based on a determination
of fact, made or implied by the agency, that is not
supported to the appropriate standard of proof by
evidence that is substantial when viewed in light
of the record as a whole, which includes the
agency record for judicial review, supplemented
by any additional evidence received by the court
under this act; or
(8) the agency action is otherwise unreasonable,
arbitrary or capricious.
(d) For purposes of this section, "in light of the record
as a whole" means that the adequacy of the evidence
in the record before the court to support a particular
finding of fact shall be judged in light of all the rele­
vant evidence in the record cited by any party that
detracts from such finding as well as all of the rele­
vant evidence in the record, compiled pursuant to
K.S.A. 77-620, and amendments thereto, cited by any
party that supports such finding, including any deAppendix D

-3d-

terminations of veracity by the presiding officer who
personally observed the demeanor of the witness and
the agency's explanation of why the relevant evi­
dence in the record supports its material findings of
fact. In reviewing the evidence in light of the record
as a whole, the court shall not reweigh the evidence
or engage in de novo review.
(e) In making the foregoing determinations, due ac­
count shall be taken by the court of the rule of harm­
less error.

Appendix D

